to,
fQm SUPREME COURT OF GEORGIA
I Case No. S20O1422
%

August 10, 2020

The Honorable Supreme Court met pursuant to adjournment.
The following order was passed:
ROGER LEE BAKER, JR. v. MAGISTRATE COURT OF TALBOT
COUNTY.
Petitioner, whose murder conviction was affirmed by this Court in
Baker v. State, 284 Ga. 537 (668 SE2d 716) (2008), filed the instant original
petition for mandamus, in which he claims that the magistrate judge issued
his arrest warrant without a proper probable cause determination, such
that it was issued in violation of his Fourth Amendment rights. Thus, he
claims that because the original arrest warrant was void, his murder
conviction was also void and he asks that this Court vacate his arrest
warrant and release him from false imprisonment.
This Court reserves its exercise of original jurisdiction for only
extremely rare cases, and petitioner has failed to establish that his is such
a case, especially given that petitioner has not shown that he has been
denied the opportunity for meaningful review of his claim below. See Gay
v. Owens, 292 Ga. 480, 482-483 (738 SE2d 614) (2013); Brown v. Johnson,
251 Ga. 436 (306 SE2d 655) (1983). Moreover, petitioner has no right to
invoke this Court's original jurisdiction as a wav to void his conviction. See,
e.g., Harper v. State, 286 Ga. 216, 218 (686 SE2d 786) (2009). Accordingly,
his petition is dismissed.
All the Justices concur.
SUPREME COURT OF THE STATE OF GEORGIA
Clerk’s Office, Atlanta
I certify that the above is a true extract from the
minutes of the Supreme Court of Georgia.
Witness my signature and the seal of said court hereto
affixed the day and year last above written.

, Clerk

AUt

SUPREME COURT OF GEORGIA
Case No. S20O1422
**.

1845

August 10, 2020

The Honorable Supreme Court met pursuant to adjournment.
The following order was passed:
ROGER LEE BAKER, JR. v. MAGISTRATE COURT OF TALBOT
COUNTY.
Petitioner, whose murder conviction was affirmed by this Court in
Baker v. State, 284 Ga. 537 (668 SE2d 716) (2008), filed the instant original
petition for mandamus, in which he claims that the magistrate judge issued
his arrest warrant without a proper probable cause determination, such
that it was issued in violation of his Fourth Amendment rights. Thus, he
claims that because the original arrest warrant was void, his murder
conviction was also void and he asks that this Court vacate his arrest
warrant and release him from false imprisonment.
This Court reserves its exercise of original jurisdiction for only
“extremely rare cases, and petitioner has failM to establish that his is suclf
a case, especially given that petitioner has not shown that he has been
denied the opportunity for meaningful review of his claim below. See Gay
v. Owens, 292 Ga. 480, 482-483 (738 SE2d 614) (2013); Brown v. Johnson,
251 Ga. 436 (306 SE2d 655) (1983). Moreover, petitioner has no right to
invoke this Court's original jurisdiction as a wav to void his conviction. See,
e.g., Harper v. State, 286 Ga. 216, 218 (686 SE2d 786) (2009). Accordingly,
his petition is dismissed.
All the Justices concur.
SUPREME COURT OF THE STATE OF GEORGIA
Clerk’s Office, Atlanta
I certify that the above is a true extract from the
minutes of the Supreme Court of Georgia.
Witness my signature and the seal of said court hereto
affixed the day and year last above written.

RECEIVED
C1<*te 3 1 2020
SUPRE^EFCTOnRTLnQK

